HHS/OIG-Audit--"Illinois Skilled Nursing Facility Claims Lacking a Preceding 3-Day Inpatient Hospital Stay, (A-05-99-00018)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Illinois Skilled Nursing Facility Claims Lacking a Preceding 3-Day Inpatient
Hospital Stay," (A-05-99-00018)
September 15, 2000
Complete Text of Report is available in PDF format
(788 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
A Medicare skilled nursing facility (SNF) claim generally qualifies for reimbursement
only if the SNF stay was preceded by an inpatient hospital stay of at least
3 days and the hospital discharge was within 30 days of the SNF admission. This
final report estimates, based on a statistical sample, that Medicare inappropriately
paid Illinois providers $900,000 for SNF services during calendar year 1996
because the 3-day hospital stay requirement was not met. This occurred primarily
because the fiscal intermediary (FI) did not cross check SNF claims against
hospital claims. The fiscal intermediaries involved in our sample reviewed the
medical records and data for the sampled claims and concurred that the SNF stays
were ineligible for Medicare reimbursement and indicated they would request
refunds for each incorrect payment identified. We recommended that the Health
Care Financing Administration monitor the FIs' recovery actions identified in
Illinois and report the results through the normal audit resolution process,
issue a program memorandum to advise all FIs and SNFs of the results of our
review, and consider having the FIs perform a review of the 3-day hospital stay
requirement as part of their payment safeguard activities. The HCFA concurred
with our recommendations.